                                                       DOT OIG Recovery Act Plan Overview
OIG Name:                                       U.S. Department of Transportation, Office of Inspector General


                                                Conduct timely oversight of DOT ARRA funds while focusing on three major challenges facing the Department: (1) ensuring
OIG Broad Recovery Act Goals:                   that DOT's grantees properly spend ARRA funds; (2) implementing new accountability requirements and programs mandated
                                                by ARRA; and (3) combating fraud waste, abuse, and mismanagement.
OIG Broad Training and Outreach Recovery Act Conduct fraud awareness and prevention activities to alert DOT staff and grantees, including contractors, at all levels of
Goals:                                       government on how to recognize, prevent, and report suspected fraud.

                                                DOT OIG is using a three-phase approach to conduct audit and investigative work by emphasizing high-risk areas and
                                                promptly report results: Phase 1--conduct a comprehensive review of prior reports and testimonies to identify major
                                                challenges facing DOT with the implementation of ARRA and identify actions DOT should take now to address known
                                                challenges--(COMPLETED); Phase 2--conduct a systematic scan of DOT agencies receiving ARRA funding to examine
OIG Recovery Act Risk Assessment Process:       vulnerabilities in program management and planning that could impede DOT's ability to effectively oversee ARRA-funded
                                                projects and meet new statutory and OMB requirements--(COMPLETED); and Phase 3--Target for audit and investigation,
                                                specific DOT programs and projects, emerging as vulnerable/high-risk areas as a result of the scan completed; proactive
                                                investigations initiated; and fraud prevention outreach and training conducted in Phase 2--(ONGOING). We will promptly
                                                notify DOT, Congress and the public through ARRA Advisories and reports, of DOT actions needed to achieve ARRA goals.



OIG Recovery Act Funds:                         $20,000,000
Expiration Date of OIG Recovery Act Funds:      30-Sep-13


OIG Recovery Act Funds Allocated to
                                                Yes
Contracts:
                                                To identify and discuss best practices in forecasting financial aspects of high-speed rail and more general intercity passenger
Purpose of Recovery Act Contracts:
                                                rail projects including ridership and revenues, operating costs and public benefits.
Types of Recovery Act Contracts Awarded to
                                                Competitive
Date:

Link to OIG Recovery Act Work Plan:             www.oig.dot.gov/recovery




Page 1 of Overview                                                                                                                         DOT OIG Recovery Act Oversight Plan 11-19-10.xls
                                              DOT OIG Recovery Act Issued Products



DOT OIG Recovery Act Audit Reports


Issued               Title/Link


                     American Recovery and Reinvestment Act of 2009: Oversight Challenges Facing the Department of
3/31/2009
                     Transportation

                     Status of Operating Administrations' Processes to Conduct Limited Quality Reviews of Recovery Act Recipient
10/6/2009
                     Data

                     Department of Transportation's Implementation of the American Recovery and Reinvestment Act Continued
11/30/2009
                     Management Attention is Needed to Address Oversight Vulnerabilities

                     Department of Transportation's Suspension and Debarment Program Does Not Safequard Against Awards to
1/7/2009
                     Improper Parties


2/23/2010             Recovery Act Data Quality: Errors in Recipients' Reports Obscure Transparency


10/22/2010           ARRA Websites Vulnerable to Hackers and Carry Security Risks


DOT OIG Recovery Act Advisories


Issued               Title/Link


5/18/2009            Department's Suspension and Debarment Program


6/22/2009            Sampling of Improper Payments in Major DOT Grants Programs


                     Federal Aviation Administration's Award of the Recovery Act Grant Funds to Airport Improvement Program
8/6/2009
                     Projects by August 5, 2009


6/28/2010            FHWA's Oversight of the Use of Value Engineering Studies on ARRA Highway and Bridge Projects




Page 1 of Issued Products                                                        DOT OIG Recovery Act Oversight Plan 11-19-10.xls
                                                                          DOT OIG Ongoing Recovery Act Audits

                                                                                                                                                                       Expected
                                                                                                                                                                        Quarter
                                                                                                                                                                                      Link to Announcement
    #        Program Area           Project Title                           Background                                               Objective                        Work Begins
                                                                                                                                                                                      Memorandum or Report
                                                                                                                                                                         (Date
                                                                                                                                                                       Initiated)

                                                          FRA received $8 billion in ARRA funding for awarding
              FRA Capital
                                                        grants to States to develop high-speed rail corridors and    (1) Identify locations where substantial delays
             Assistance for
                                                         improve intercity passenger rail service. In our March consistently occur (i.e. "bottlenecks") on Amtrak routes;
            High-Speed Rail
                               Intercity Passenger Rail    31, 2009 report, "ARRA 2009: Oversight Challenges       (2) identify statistically significant determinants of Q3 FY 09   Audit of Intercity Passenger
    1        Corridors and
                                 Service Bottlenecks         Facing the Department of Transportation,” we         Amtrak delays; and (3) assess the degree of influence (05/05/09)    Rail Service Bottlenecks
               Intercity
                                                          identified FRA's new passenger rail program as a risk    each determinant has on Amtrak delays overall, by
            Passenger Rail
                                                        since FRA has not previously implemented a large-scale                   route, and at bottlenecks.
                Service
                                                                   high-speed passenger rail program.

                                                    Our ARRA Advisory issued August 6, 2009, reported that
                                 FAA's Process for  FAA may have selected some projects with questionable                                                                            Audit of FAA’s Process For
           FAA Grants-in-aid                                                                               Review the effectiveness of FAA’s selection process for      Q4 FY 09
    2                          Awarding ARRA Grants economic merit for ARRA funds. Such projects may not                                                                              Awarding Recovery Act
             for Airports                                                                                       awarding ARRA grants for airport projects.             (09/03/09)
                                to Airport Projects comply with ARRA requirements, such as providing long-                                                                           Grants For Airport Projects
                                                                        term benefits.


                                                        FHWA has identified LPA projects as high programmatic
                                                        risk because many of the state transportation agencies
                               Oversight of Federal-aid
                                                         do not provide sufficient oversight over those projects                                                                    Audit of FHWA and State
            FHWA Highway          Highway Projects                                                               Assess FHWA’s oversight of the effectiveness of FHWA's
                                                         administered by the local units of government. In the                                                           Q1 FY 10   DOT Oversight of Projects
    3        Infrastructure     Administered by Local                                                               process to improve state oversight of Local Public
                                                          case of the ARRA program, FHWA has developed an                                                               (10/22/09) Administered By Local Public
               Investment      Public Agencies Projects                                                                                Agencies.
                                                         ARRA oversight plan using National Review Teams and                                                                                Agencies
                                        (LPA)
                                                          Program Accountability Results reviews designed to
                                                        review ARRA program spending including LPA projects.


                                                        ARRA includes an emphasis on the use of fixed-price
                                                      contracts and competitive procedures to the maximum
                                                                                                                                                                                Audit of FHWA's Federal-Aid
                                FHWA’s Oversight of    extent practicable, which applies to Federal-aid state
            FHWA Highway                                                                                        Assess the adequacy of FHWA’s oversight of state                Highway Program Oversight
                               Federal-aid State ARRA   contracts. FHWA's ARRA risk assessment identified                                                             Q1 FY 10
    4        Infrastructure                                                                                   Department of Transportation contracting practices for             of Procurement Practices
                                  Contract Award       state contract award and administration issues as risk                                                        (10/28/09)
               Investment                                                                                                   awarding ARRA contracts.                             For Recovery Act-Funded
                                     Practices.           areas. Also, our scan work found that state DOT
                                                                                                                                                                                  Contracts At State DOTs
                                                      workforces were often capped or shrinking as workload
                                                                        grows under ARRA.




Page 1 of Ongoing Audits                                                                                                                                          DOT OIG Recovery Act Oversight Plan 11-19-10.xls
                                                                             DOT OIG Ongoing Recovery Act Audits

                                                                                                                                                                               Expected
                                                                                                                                                                                Quarter
                                                                                                                                                                                             Link to Announcement
    #        Program Area             Project Title                            Background                                                  Objective                          Work Begins
                                                                                                                                                                                             Memorandum or Report
                                                                                                                                                                                 (Date
                                                                                                                                                                               Initiated)


                                                        FHWA will utilize National Review Teams as part of its
                                                           ARRA oversight strategy to conduct independent
                                                          evaluations of State processes and procedures and           Evaluate the effectiveness of FHWA's National Review
            FHWA Highway
                                FHWA's National Review      assessments of project compliance for high-risk            Teams in conducting national oversight of highway     Q1 FY 10         Evaluation of FHWA’s
    5        Infrastructure
                                       Teams              operations. FHWA expects the reviews to provide            funds and mitigating risks posed by the implementation (11/02/09)        National Review Team
               Investment
                                                       national consistency, expertise, and knowledge sharing.                               of ARRA.
                                                         This is a new approach for FHWA which traditionally
                                                       relies on it 52 Division offices for project-level oversight.


              FTA's Major                                    In 2007, we issued a baseline report on this project
            Projects - Dulles                             that outlined key concerns related to the project's cost
                                 FTA's Oversight of the                                                                Evaluate the effectiveness of FTA's oversight of the                 Audit of FTA’s Oversight of
           Corridor Metrorail                               and schedule estimates, funding, and management.                                                                   Q1 FY 10
    6                               Dulles Corridor                                                                   Dulles Corridor Metrorail Project and assess potentia                    the Dulles Corridor
            Project - Phase I                             The project involves a $900 million Federal investment                                                              (11/19/09)
                                   Metrorail Project.                                                                                   safety concerns.                                        Metrorail Project
              (the Dulles                                 and accelerated $77 million in payments authorized by
                Project)                                                           ARRA.
                                                             ARRA requires DOT grant recipients to periodically
                                   FAA's Job Creation
           FAA Grants-in-aid                              report “the number of direct, on-project jobs created or
                                  Under the American                                                                   Determine whether (1) AIP and F&E projects funded
            for Airports and                               sustained by the Federal funds provided for projects. . .                                                          Q1 FY 10      Audit of FAA’s Job Creation
    7                                Recovery and                                                                    under ARRA are preserving and creating jobs and (2) the
              Facilities and                               and, to the extent possible, the estimated indirect jobs                                                          (11/19/09)      Under the Recovery Act
                                  Reinvestment Act of                                                                   reporting of job data satisfies ARRA requirements.
               Equipment                                      created or sustained in the associated supplying
                                          2009
                                                                                 industries.”
           All ARRA-funded
                                                      Recently, intruders brought down DOT's principal               Determine if (1) DOT's recovery Websites and database
            programs and
                                                   website, which contains ARRA information. In addition,            systems are properly configured to minimize the risk of
            projects within Security Controls Over                                                                                                                            Q1 FY 10 Review of Security Controls
    8                                               inadequate configurations may allow for intruders to             cyber attacks, and (2) access to recovery Websites and
           FAA, FHWA, FRA, ARRA Related Websites                                                                                                                             (12/08/09) Over Recovery Act Websites
                                                       deface, alter or remove information from DOT's                 database systems are adequately controlled to ensure
            FTA, OST, and
                                                                      recovery websites.                                   accountability and integrity of ARRA data.
                MARAD

           All ARRA-funded
                                                                                                          Determine if (1) questioned costs identified in Single
            programs and                           DOT Modal Administrations are required to render a                                                                                           Audit of DOT's
                             Implementing Single                                                         Audits are properly followed up by the DOT Operating
            projects within                       management decision on Single Audit findings within 6                                                                        Q1 FY 10   Implementation of Single
    9                       Audit Recommendations                                                          Administrations, and (2) internal control problems
           FAA, FHWA, FRA,                        months of receipt of the audit report according to OMB                                                                      (12/22/09) Audit Recommendations and
                              and Cost Recovery                                                          (material weaknesses and significant deficiencies) are
            FTA, OST, and                                     Circular A-133 section 405 (d).                                                                                                   Cost Recovery
                                                                                                            corrected by DOT grantees in a timely manner.
                MARAD




Page 2 of Ongoing Audits                                                                                                                                                 DOT OIG Recovery Act Oversight Plan 11-19-10.xls
                                                                            DOT OIG Ongoing Recovery Act Audits

                                                                                                                                                                             Expected
                                                                                                                                                                              Quarter
                                                                                                                                                                                           Link to Announcement
    #        Program Area           Project Title                             Background                                                 Objective                          Work Begins
                                                                                                                                                                                           Memorandum or Report
                                                                                                                                                                               (Date
                                                                                                                                                                             Initiated)

                                                           FRA received $8 billion in ARRA funding for awarding
              FRA Capital
                                                         grants to States to develop high-speed rail corridors and
             Assistance for
                                                          improve intercity passenger rail service. In our March
            High-Speed Rail        High Speed Rail                                                                 Determine best practices in preparation of ridership and                Review of High Speed Rail
                                                            31, 2009 report, "ARRA 2009: Oversight Challenges                                                                Q2 FY 10
    10       Corridors and      Financial Forecasting                                                               revenue forecasts, cost estimates, and public benefits'               and Intercity Passenger Rail
                                                              Facing the Department of Transportation,” we                                                                  (01/04/10)
               Intercity            Best Practices                                                                                       valuations.                                         Forecasting Practices
                                                           identified FRA's new passenger rail program as a risk
            Passenger Rail
                                                         since FRA has not previously implemented a large-scale
                Service
                                                                    high-speed passenger rail program.

                                                          ARRA required FHWA to ensure states receiving ARRA
                                 FHWA Oversight of                                                                Determine whether FHWA’s oversight of selected ARRA
            FHWA Highway                                    funds adhere to all Federal-aid highway program                                                                        FHWA's Oversight of Higher
                                 Higher Dollar Value                                                               projects has resulted in project compliance with key  Q2 FY 10
    11       Infrastructure                               requirements. Failure to fully meet key requirements                                                                     Dollar Recovery Act Highway
                                Recovery Act Highway                                                                Federal-aid highway cost, quality, and completion   (01/20/10)
               Investment                                  on higher dollar value projects could impact project                                                                              Projects
                                      Projects                                                                                        requirements.
                                                                   cost, quality, or timely completion.


           FTA Transit Capital
                                                        Several very large transit projects have already received
            Assistance, Fixed                                                                                      For select major transit projects receiving ARRA and
                                                           ARRA funding, both New Starts and other funding,
               Guideway        FTA's Oversight of Major                                                             Lower Manhattan Recovery funds in the New York                         FTA's Oversight of Major
                                                        including the Fulton Street Transit project. This project                                                            Q2 FY 10
    12       Infrastructure     Transit Projects in the                                                           region (1) evaluate FTA’s oversight of the projects and                 Transit Projects in the New
                                                          has already experienced significant cost overruns and                                                             (03/25/10)
            Investment, and       New York Region                                                                     (2) assess whether applicable ARRA goals and                                York Region
                                                          schedule delays, and prior audit work has shown that
           Capital Investment                                                                                                  requirements are being met.
                                                         larger projects are particularly vulnerable to problems.
                 Grants


                                                          FRA received $8 billion in ARRA funding for awarding
              FRA Capital
                                                        grants to States to develop high-speed rail corridors and Determine whether the access agreements (1) comply
             Assistance for
                                 High-Speed Rail And     improve intercity passenger rail service. In our March with the requirements set forth in the Passenger Rail                      FRA High-Speed Rail and
            High-Speed Rail
                               Intercity Passenger Rail    31, 2009 report, "ARRA 2009: Oversight Challenges        Investment and Improvement Act of 2008; and (2)          Q3 FY 10       Intercity Passenger Rail
    13       Corridors and
                                Infrastructure Access        Facing the Department of Transportation,” we          adequately address cost, schedule, and performance       (04/12/10)       Infrastructure Access
               Intercity
                                     Agreements           identified FRA's new passenger rail program as a risk goals ensuring that the High-Speed Intercity Passenger                            Agreements
            Passenger Rail
                                                        since FRA has not previously implemented a large-scale          Rail grant program benefits are achieved.
                Service
                                                                   high-speed passenger rail program.

                                                                                                                  Determine (1) Amtrak’s five-year capital requirements
                                                                                                                   and how these align with its business and strategic
                                  National Railroad         ARRA provided $1.3 billion dollars to supplement       goals; (2) how Amtrak prioritizes its capital projects
              FRA Capital                                                                                                                                                   Under way National Railroad Passenger
                               Passenger Corporation's     Amtrak's capital budget, but the short timeframe in
    14       Assistance for                                                                                         among competing needs; (3) Amtrak’s ability to           prior to   Corporation's Five Year
                                 (Amtrak's) Five Year      which to spend the funds has created a number of
                Amtrak                                                                                            implement its increased capital budget provided by          ARRA           Capital Plan
                                     Capital Plan                              challenges.
                                                                                                                      ARRA; and (4) how Amtrak evaluates the
                                                                                                                          performance of capital projects




Page 3 of Ongoing Audits                                                                                                                                               DOT OIG Recovery Act Oversight Plan 11-19-10.xls
                                                                     DOT OIG Ongoing Recovery Act Audits

                                                                                                                                                                  Expected
                                                                                                                                                                   Quarter
                                                                                                                                                                                Link to Announcement
    #        Program Area        Project Title                          Background                                              Objective                        Work Begins
                                                                                                                                                                                Memorandum or Report
                                                                                                                                                                    (Date
                                                                                                                                                                  Initiated)

                                                      In addition to increasing funding for existing DOT     Assess (1) OST’s management of the TIGER program
           OST Supplemental       OST's TIGER         programs, ARRA created new discretionary grant        including the performance measures for determining
                                                                                                                                                                     Q1 FY 11      Audit of OST's TIGER
    15       Discretionary    Discretionary Grants        programs, including $1.5 billion for surface     economic transportation -related impacts and (2) each
                                                                                                                                                                    (10/22/10) Discretionary Grant Program
            Grants Program          Program              transportation infrastructure projects to be      Operating Administration's oversight of their respective
                                                     administered by the Office of the Secretary (OST).                        TIGER projects.




Page 4 of Ongoing Audits                                                                                                                                     DOT OIG Recovery Act Oversight Plan 11-19-10.xls
                                                             DOT OIG Planned Recovery Act Audits
                                                                                                                                                                                    Expected
     #           Agency      Program Area            Project Title                         Background                                         Objective                              Quarter
                                                                                                                                                                                   Work Begins


                           FTA Transit Capital
                                                                         ARRA includes an emphasis on use of fixed-price
                            Assistance, Fixed                                                                               Assess the adequacy of FTA's oversight of state
                                                  FTA’s Oversight of      contracts and competitive procedures to the
                               Guideway                                                                                      and transit agency level contract award and
                                               Grantees’ ARRA Contract maximum extent practicable, which applies to
     1             FTA       Infrastructure                                                                                 administration practices to ensure compliance             Q2 FY 11
                                                     Award and          contracts under FTA grants. However, FTA has no
                            Investment, and                                                                                   with laws and regulations, as well as cost,
                                               Administration Practices mechanism for pre-award reviews of compliance
                           Capital Investment                                                                                     schedule, and performance goals.
                                                                           with ARRA and other contracting mandates.
                                 Grants

                                                                            ARRA provided $27.5 billion for FHWA
                                                                                                                       Assess the adequacy of FHWA’s oversight of state
                            FHWA Highway       FHWA’s Oversight of        infrastructure investments and economic
                                                                                                                       level contract administration practices to ensure
     2           FHWA        Infrastructure   Federal-aid State ARRA       recovery. FHWA's ARRA risk assessment                                                                      Q2 FY 11
                                                                                                                        compliance with laws and regulations, as well as
                               Investment    Contract Administration         identified State contract award and
                                                                                                                             cost, schedule, and performance goals.
                                                                              administration issues as risk areas.
                                                                         Our ARRA Advisory issued August 6, 2009,
                                                                          reported that FAA has awarded grants to
                                             FAA's Oversight of ARRA                                                   Determine whether FAA oversight of ARRA grants
                           FAA Grants-in-aid                             sponsors with multi-year histories of grant
     3             FAA                       Expenditures for Airport                                                     is ensuring that airport sponsors are being                 Q2 FY 11
                              for Airports                              management problems. This raises concerns
                                                     Projects                                                              reimbursed for only eligible expenditures.
                                                                      regarding FAA's ability to ensure ARRA funds are
                                                                                   effectively administered.

                           FTA Transit Capital
                            Assistance, Fixed
                               Guideway                                  The Improper Payments Information Act requires      Evaluate whether FTA has adequate internal
                                                  Improper Payment
     4             FTA       Infrastructure                               agencies to test for improper payments in those     controls to prevent, detect and recapture               Q2 FY 11
                                                   Oversight at FTA
                            Investment, and                                       programs deemed susceptible.              improper payments to ARRA grant recipients.
                           Capital Investment
                                 Grants


                                                                         ARRA required FHWA to ensure states receiving      (1) Determine whether FHWA’s oversight of
                                                                          ARRA funds adhere to all Federal-aid highway     selected ARRA projects has resulted in project
                            FHWA Highway           FHWA Oversight of
                                                                         program requirements. Failure to fully meet key        compliance with Federal-aid highway
     5           FHWA        Infrastructure      Recovery Act Highway                                                                                                                 Q2 FY 11
                                                                           requirements on higher dollar value projects   construction requirements; and (2) follow-up on
                               Investment         Project Construction
                                                                            could impact project cost, quality, or timely FHWA actions related to recommendations from
                                                                                           completion.                                previous ARRA reports.




Page 1 of Planned Audits                                                                                                                               DOT OIG Recovery Act Oversight Plan 11-19-10.xls
                                                                DOT OIG Planned Recovery Act Audits
                                                                                                                                                                                         Expected
     #           Agency         Program Area            Project Title                         Background                                           Objective                              Quarter
                                                                                                                                                                                        Work Begins

                                                                               FRA received $8 billion in ARRA funding for
                                  FRA Capital                               awarding grants to States to develop high-speed
                                 Assistance for                            rail corridors and improve intercity passenger rail
                                                                                                                                 Assess implementation risks associated with
             Federal Railroad   High-Speed Rail   Capability of States and service. In our March 31, 2009 report, "ARRA
                                                                                                                                 ARRA's Capital Assistance for High Speed Rail
     6        Administration     Corridors and    FRA to Plan and Manage          2009: Oversight Challenges Facing the                                                                    Q3 FY 11
                                                                                                                                 Corridors and Intercity Passenger Rail Service
                  (FRA)            Intercity      High Speed Rail Projects Department of Transportation,” we identified
                                                                                                                                                   Program
                                Passenger Rail                              FRA's new passenger rail program as a risk since
                                    Service                               FRA has not previously implemented a large-scale
                                                                                   high-speed passenger rail program.
                                                                            ARRA required FHWA to ensure states receiving
                                                                             ARRA funds adhere to all Federal-aid highway Determine whether FHWA’s oversight of selected
                                FHWA Highway        FHWA Oversight of
                                                                            program requirements. Failure to fully meet key   ARRA Federal Lands projects has resulted in
     7           FHWA            Infrastructure    Recovery Act Federal                                                                                                                    Q3 FY 11
                                                                              requirements on higher dollar value projects   project compliance with Federal-aid highway
                                   Investment         Lands Projects
                                                                               could impact project cost, quality, or timely                requirements.
                                                                                              completion.
                                  FRA Capital
                                                                                                                            Assess the adequacy of FRA’s oversight of state
                                 Assistance for
                                                   FRA’s Oversight of    The High-Speed Rail Program represents a major level and other grantee level contract award and
                                High-Speed Rail
                                                Grantees’ ARRA Contract transformation for FRA--moving from a relatively administration practices to ensure compliance
     8             FRA           Corridors and                                                                                                                                             Q4 FY 11
                                                      Award and           small agency focused on rail safety, to a grant-    with laws and regulations that are aimed at
                                   Intercity
                                                Administration Practices making agency responsible for billions of dollars.   preventing and detecting fraud, waste, and
                                Passenger Rail
                                                                                                                                                abuse.
                                    Service
                                FHWA Highway                                The Improper Payments Information Act requires       Evaluate whether FHWA has adequate internal
                                                    Improper Payment
     9           FHWA            Infrastructure                              agencies to test for improper payments in those       controls to prevent, detect and recapture               Q4 FY 11
                                                    Oversight at FHWA
                                   Investment                                        programs deemed susceptible.                   improper payments to grant recipients.




Page 2 of Planned Audits                                                                                                                                    DOT OIG Recovery Act Oversight Plan 11-19-10.xls
